                    Improvements Are Needed to Ensure
                   Information Developed During Criminal
                  Investigations Is Referred for Civil Action

                                  September 2004

                        Reference Number: 2004-10-189




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.



Redaction Legend:
3d = Identifying Information - Other Identifying Information of an Individual or Individuals
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   September 29, 2004


      MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - Improvements Are Needed to Ensure
                                     Information Developed During Criminal Investigations Is
                                     Referred for Civil Action (Audit # 200310041)


      This report presents the results of our review to determine whether the Criminal
      Investigation (CI) function ensured information identified during its investigations was
      properly referred for civil action.
      Upon the closing of a criminal investigation, the CI function makes a determination
      as to whether the taxpayer’s account should be referred to one of the civil functions
      to ensure any civil tax liabilities are assessed and delinquent taxes collected. During
      Fiscal Years 2002 and 2003, the CI function made a civil determination on 2,393 tax or
      tax-related1 investigations with criminal deficiencies totaling approximately $5.6 billion.2
      The pursuit of civil sanctions, in addition to criminal enforcement, contributes to
      maintaining voluntary compliance and public confidence in the fairness of the tax
      system.
      In summary, the CI function’s existing procedures did not ensure the Internal Revenue
      Service (IRS) civil functions were notified that civil action was required upon completion


      1
        The CI function defines tax-related investigations as those investigations citing criminal violations of Title 26
      (Internal Revenue Code) or Title 18 code sections 286, 287, 371(b), or 371(k).
      2
        A prior Treasury Inspector General for Tax Administration report, Courts Are Not Always Notified When
      Criminals Fail to Comply With Their Sentences to Settle Civil Tax Liabilities (Reference Number 2004-10-060,
      dated March 2004) identified inaccurate criminal deficiency amounts in the CI Management Information System
      (CIMIS). The CIMIS is a database that tracks the status and progress of criminal investigations and the time
      expended by special agents. It is also used as a management tool that provides the basis for decisions of both local
      and national scope. We used the criminal deficiency amounts shown in the CIMIS and did not independently
      validate the information. Accordingly, we do not express an opinion on, and caution readers as to the reliability of,
      the amounts shown.
                                                          2

of a criminal investigation. We identified 13 cases for which civil action was needed, but
the CI function either did not properly notify the civil functions or did not monitor the
cases to ensure the information was received. As a result, taxpayers investigated, and
in some cases convicted, for tax crimes were not pursued civilly, thereby potentially
foregoing millions of dollars in tax assessments. In addition, our limited reviews,
discussions, and analysis of the CI Management Information System (CIMIS) data
underscore our concern that existing procedures within the CI function may not ensure
information in grand jury3 cases was properly referred for civil action. The CI function
does not have local guidance for determining what constitutes grand jury information,
and CI function personnel may not be taking the necessary steps to identify information
that could be referred. Also, the CI function did not appoint a management official
within each field office to provide guidance on civil matters.
We recommended the Chief, CI, incorporate procedures to ensure a closing report is
sent to the civil functions on all cases for which civil action is needed and to require field
offices to confirm that the Small Business/Self-Employed (SB/SE) Division received
information from all referred closed cases. The Chief, CI, should also consider issuing
supplemental guidance to the field offices to improve the processes for properly
classifying, segregating, and using grand jury information.
Management’s Response: In general, the Chief, CI, agreed with the findings of the
report and has already taken steps to address the issues identified. The Chief, CI,
agreed to clarify case closing procedures pertaining to the referral of information to the
SB/SE Division for civil action and to include instructions in the case closing report for
the Technical Services function to notify the CI function upon receipt of the closing
report and related attachments. The Chief, CI, also agreed to issue supplemental
guidance to the field offices to improve the processes for properly classifying,
segregating, and using grand jury information. We adjusted the wording in footnote 2
on page 1 and added footnote 16 on page 11 of the report to address the general
comments provided by the Chief, CI (see page 22 for more details). Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




3
 A grand jury is established to hear testimony to determine whether there is probable cause to believe the person to
be indicted committed the crime in question. The grand jury adheres to the strictest of secrecy, and violators of the
secrecy requirements are subject to severe penalties.
                    Improvements Are Needed to Ensure Information Developed
                     During Criminal Investigations Is Referred for Civil Action




                                                  Table of Contents


Background ............................................................................................... Page 1
Procedures for Transmitting Information for Civil Action Are
Ineffective, Resulting in Unassessed Taxes.............................................. Page 4
         Recommendations 1 and 2: ............................................................Page 6

The Process for Classifying Grand Jury Information
Can Be Improved ...................................................................................... Page 6
         Recommendation 3: .......................................................................Page 13

The Criminal Investigation Function Has Implemented
Procedures Emphasizing Coordination With Civil Functions
on Investigations Involving Abusive Trust Promoters and Preparers
of Fraudulent Returns................................................................................ Page 13
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Outcome Measures............................................................ Page 20
Appendix V – Management’s Response to the Draft Report ..................... Page 21
             Improvements Are Needed to Ensure Information Developed
              During Criminal Investigations Is Referred for Civil Action

                                The mission of the Internal Revenue Service (IRS) Criminal
Background
                                Investigation (CI) function is to serve the American public
                                by investigating potential criminal violations of the Internal
                                Revenue Code (I.R.C.) and related financial crimes in a
                                manner that fosters confidence in the tax system and
                                compliance with the laws.
                                The I.R.C. provides civil and criminal sanctions for
                                violations of the Internal Revenue laws. Both civil and
                                criminal1 sanctions may be imposed for the same offense.
                                Typically, civil actions such as making assessments and
                                proceeding with collection activity are not conducted until
                                the criminal aspects of an investigation have been formally
                                closed. The Small Business/Self-Employed (SB/SE)
                                Division of the IRS generally pursues any civil sanctions.
                                Upon the closing of a criminal investigation, the CI function
                                will make a determination as to whether the taxpayer’s
                                account should be referred to one of the civil functions to
                                ensure any civil tax liabilities are assessed and delinquent
                                taxes are collected. The pursuit of civil sanctions, in
                                addition to criminal enforcement, contributes to maintaining
                                voluntary compliance and public confidence in the fairness
                                of the tax system.
                                The CI function categorizes investigations as either
                                administrative2 or grand jury.3 Administrative investigations
                                are those worked outside of the grand jury process. All
                                information developed during this type of investigation may

                                1
                                  The criminal violations are charged only against the tax deficiency that
                                results from fraud. The civil tax deficiency is much broader and
                                includes all tax due on a return. For example, a taxpayer may be
                                charged criminally for evading taxes because of skimmed cash from a
                                business. The criminal tax deficiency would be the tax resulting only
                                from the income skimmed; the civil tax deficiency includes the entire
                                tax liability.
                                2
                                  Most administrative investigations involve only Title 26 (I.R.C.)
                                violations, although it is possible to investigate Title 31 (Currency
                                Transaction Reporting) violations and some Title 18 violations
                                administratively. Administrative investigations may be worked
                                whenever the special agent anticipates working without the cooperation
                                of other agencies.
                                3
                                  A grand jury is established to hear testimony to determine whether
                                there is probable cause to believe the person to be indicted committed
                                the crime in question. The grand jury adheres to the strictest of secrecy,
                                and violators of the secrecy requirements are subject to severe penalties.
                                                                                                  Page 1
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   be used for civil purposes. Grand jury investigations
                   involve the use of a grand jury before, while, or after the CI
                   function conducts its investigation. Information presented
                   to the grand jury may not be used for civil purposes unless
                   the IRS obtains the information independent of the grand
                   jury or in accordance with Rule 6(e) of the Federal Rules of
                   Criminal Procedure.4 Grand jury information included in
                   the indictment or plea agreement filed with the court and
                   any information presented during any court preceding that
                   becomes public information can also be used for civil
                   purposes. Otherwise, to use grand jury information that is
                   not part of the public record to pursue civil tax remedies
                   requires a Rule 6(e) order granted by the courts.
                   During Fiscal Years (FY) 2002 and 2003, the CI function
                   closed and subsequently made a civil determination on
                   2,393 investigations containing tax or tax-related violations5
                   for which prosecution had been recommended. These
                   2,393 investigations had criminal deficiency amounts
                   totaling approximately $5.6 billion.6 Of these
                   2,393 investigations, 1,573 (66 percent) were categorized as
                   grand jury; the remaining 820 cases (34 percent) were
                   categorized as administrative investigations.
                   We conducted this audit during the period February through
                   August 2004 in the National Headquarters CI function in
                   Washington, D.C., and the Chicago, Illinois;
                   Newark, New Jersey; Oakland, California; and
                   Tampa, Florida, CI function field offices. We also

                   4
                     18 U.S.C. Appendix, Rule 6 (2003).
                   5
                     The CI function defines tax-related investigations as those
                   investigations citing criminal violations of Title 26 (I.R.C.) or Title 18
                   code sections 286, 287, 371(b), or 371(k).
                   6
                     A prior Treasury Inspector General for Tax Administration report,
                   Courts Are Not Always Notified When Criminals Fail to Comply With
                   Their Sentences to Settle Civil Tax Liabilities (Reference
                   Number 2004-10-060, dated March 2004) identified inaccurate criminal
                   deficiency amounts in the CI Management Information System
                   (CIMIS). The CIMIS is a database that tracks the status and progress of
                   criminal investigations and the time expended by special agents. It is
                   also used as a management tool that provides the basis for decisions of
                   both local and national scope. We used the criminal deficiency amounts
                   shown in the CIMIS and did not independently validate the information.
                   Accordingly, we do not express an opinion on, and caution readers as to
                   the reliability of, the amounts shown.
                                                                                     Page 2
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   contacted SB/SE Division personnel in the
                   Baltimore, Maryland; Chicago, Illinois;
                   Oakland, California; and Philadelphia, Pennsylvania,
                   offices. In addition, we contacted IRS Criminal Tax (CT)
                   Division personnel7 in Washington, D.C., and the
                   Chicago, Illinois; Jacksonville, Florida;
                   Newark, New Jersey; and Oakland, California, offices.
                   We encountered a significant scope limitation that precluded
                   us from fully addressing our overall audit objective, which
                   was to determine whether the CI function was ensuring
                   information identified during its investigations was properly
                   referred for civil action. Our review of administrative cases
                   did not entail direct access to entire investigative case files;
                   rather, the CI function provided, at our request, specific case
                   information necessary to accomplish our objective.
                   However, and more importantly, we did not receive
                   sufficient, competent, relevant, and timely information on a
                   significant number of grand jury investigations that we
                   selected to review. As part of the grand jury procedures
                   governing disclosure of information, the CI function
                   engaged local IRS CT Division attorneys and the Assistant
                   United States Attorneys (AUSA) to determine what
                   information, if any, from the cases we requested was
                   considered grand jury material and, thus, was restricted
                   from being provided to us. Ultimately, the AUSAs were the
                   final authority on what we could review.
                   CI function and Treasury Inspector General for Tax
                   Administration management cooperated to the fullest extent
                   possible on this matter; however, due to the aforementioned
                   process and circumstances beyond either party’s control, we
                   received either no information, or only partial and
                   incomplete information, on a majority of the grand jury
                   cases. Since an overwhelming majority of prosecution cases
                   are categorized as grand jury, without access to certain
                   information from those cases we can not reach conclusions
                   with a sufficient degree of confidence on the
                   appropriateness of the CI function’s actions relative to the
                   handling of civil matters. We can comment only on what
                   we reviewed. Therefore, our review results, which are

                   7
                    A function within the IRS Office of Chief Counsel responsible for
                   providing legal guidance to the CI function.
                                                                                  Page 3
                Improvements Are Needed to Ensure Information Developed
                 During Criminal Investigations Is Referred for Civil Action

                                   based on limited observations and analyses, may not be
                                   representative of the population.
                                   With the exception of the scope limitation described above,
                                   the audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The CI function’s existing procedures are ineffective in
Procedures for Transmitting        ensuring the IRS civil functions are properly notified that
Information for Civil Action       civil action is required upon completion of a criminal
Are Ineffective, Resulting in      investigation. This occurred because the CI function did not
Unassessed Taxes                   ensure required closing letters notifying the civil functions
                                   to proceed with civil action were sent and/or received.
                                   Also, inadequate monitoring procedures to ensure the civil
                                   functions were properly notified contributed to the
                                   ineffectiveness. As a result, taxpayers investigated, and in
                                   some cases convicted, for tax crimes were not pursued
                                   civilly, thereby potentially foregoing millions of dollars in
                                   tax assessments.
                                   We reviewed 348 cases (from the 4 field offices) closed
                                   during FYs 2002 and 2003 to determine if the civil
                                   functions were properly notified when the CI function
                                   indicated that civil action was needed. In 12 of the 34 cases,
                                   the CI function either did not properly notify the civil
                                   functions of the need for any action (7 cases) or did not
                                   follow up to ensure the civil function received the
                                   information (5 cases). As a result, civil action was not
                                   initiated and pursued. According to case information, these
                                   12 cases had total tax deficiencies of approximately
                                   $3.9 million. We provided information on these cases to the
                                   CI function to allow it to take necessary actions.
                                   In addition, 3d-------------------------------------------------------
                                   ------------------------------------------------------------------------
                                   ------------------------------------------------------------------------
                                   ------------------------------------------------------------------------



                                   8
                                     We were unable to review one additional case due to the grand jury
                                   restrictions.
                                                                                                   Page 4
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   --------------.9 This occurred because the CI function did not
                   notify the civil function of the need to make the required
                   assessment(s).
                   The Internal Revenue Manual (IRM) requires that the CI
                   function notify the appropriate civil function of the need to
                   take action upon completion of a criminal investigation and
                   provide it with a copy of the Special Agent’s Report if it is
                   not prohibited by the grand jury secrecy rules. In addition,
                   our discussions with CI function personnel indicated the CI
                   function does not monitor the cases to ensure the civil
                   functions were properly notified of the need for civil action.
                   At a minimum, the CI function needs to ensure the
                   information referred was received by the civil functions.
                   In April 2004, the CI function and the SB/SE Division
                   issued interim procedures in response to the findings
                   outlined in our report on monitoring conditions of
                   probation.10 The procedures outlined the following steps to
                   ensure tax cases on sentenced taxpayers are properly
                   referred:
                        •    The revised CI function closing report should
                             identify the potential for the collection of a
                             significant amount of tax.
                        •    The revised closing report should be sent to the
                             Territory manager of the Technical Services
                             function, an SB/SE Division position.
                        •    Special agents should contact the Territory manager
                             to confirm that the information referred for civil
                             action was received.
                   While we agree these procedures will help to ensure the
                   civil functions are properly notified of the need for civil
                   action on cases in which a taxpayer was sentenced for a tax
                   violation, the procedures do not address tax investigations
                   that were not prosecuted. We believe procedures are needed
                   to ensure the civil functions are notified when action is

                   9
                     3d----------------------------------------------------------------------------------
                   -----------------------------------------
                   10
                      Courts Are Not Always Notified When Criminals Fail to Comply With
                   Their Sentences to Settle Civil Tax Liabilities (Reference
                   Number 2004-10-060, dated March 2004).
                                                                                                Page 5
               Improvements Are Needed to Ensure Information Developed
                During Criminal Investigations Is Referred for Civil Action

                                  needed on all case closures, not just those in which the
                                  taxpayer was sentenced.

                                  Recommendations

                                  The Chief, CI, should:
                                  1. Incorporate procedures to ensure a closing report is sent
                                     to the SB/SE Division on all cases for which civil action
                                     is needed.
                                  Management’s Response: The Chief, CI, agreed with the
                                  recommendation. The CI function revised its investigative
                                  closing documents to clarify procedures pertaining to the
                                  referral of information for civil action. Also, guidance was
                                  previously issued to the field specifically addressing the
                                  importance of proper case closing procedures for subjects
                                  who received conditions of probation as part of their
                                  sentences and addressing the civil closing requirements for
                                  sentenced taxpayers. Additionally, a comprehensive
                                  document is being prepared that provides instruction on a
                                  number of items of mutual interest to the CI function and
                                  other operating divisions; it will reiterate the instructions for
                                  case closing, including discontinued investigations.
                                  2. Establish procedures requiring CI function field offices
                                     to confirm that the SB/SE Division received the
                                     information referred from all closed cases.
                                  Management’s Response: The Chief, CI, agreed with the
                                  recommendation. The case closing report has been revised
                                  to include instructions to the Technical Services function to
                                  notify the special agent upon receipt of the report. Further,
                                  guidance recently issued to CI function special agents
                                  instructs them to contact the Technical Services function to
                                  confirm receipt of CI closing reports and related
                                  attachments.
                                  According to data in the CI Management Information
The Process for Classifying
                                  System (CIMIS), the CI function referred for civil action
Grand Jury Information Can
                                  about 50 percent of all closed investigations that contained
Be Improved
                                  tax violations. These data also show that information from
                                  administrative investigations was referred more frequently
                                  than information from grand jury investigations (59 percent
                                  compared to 46 percent). Similar patterns exist regardless
                                                                                            Page 6
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   of whether the taxpayer was successfully prosecuted.
                   Table 1 summarizes the referral of closed tax investigations
                   (for which the CI function recommended prosecution)
                   during FYs 2002 and 2003.
                     Table 1: Referral of Closed Investigations - FYs 2002 and 2003

                    Type of Case       Results of      Total    Total       Percent
                                      Prosecution      Cases   Referred     Referred
                                    Recommendation

                   Administrative   Sentenced           647       405          63%
                                    Not Sentenced       173        82          47
                                     Subtotal           820       487          59

                   Grand Jury       Sentenced          1,311      677          52%
                                    Not Sentenced        262       41          16
                                     Subtotal          1,573      718          46

                   All Cases        Sentenced          1,958     1,082         55%
                                    Not Sentenced        435       123         28
                                     Total             2,393     1,205         50
                   Source: The CIMIS.

                   Together with the information obtained during our limited
                   review, these data underscore our concern that the CI
                   function is not always properly referring information in
                   grand jury investigations for civil action. As previously
                   noted, we were unable to review case files of grand jury
                   investigations for which the CI function did not forward the
                   case for civil action. However, we discussed the procedures
                   for referring both administrative and grand jury
                   investigations with CI function and CT Division personnel.
                   From these discussions, we identified several factors
                   affecting the CI function’s ability to refer information from
                   grand jury investigations for civil action.
                       •   The CI function’s procedures for identifying
                           information in grand jury cases that could be
                           referred may be ineffective.
                       •   The CI function may not have properly segregated
                           information in grand jury cases.
                       •   The CI function did not appoint officials within each
                           field office to provide guidance on civil matters.

                                                                              Page 7
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   The Government Accountability Office (GAO)11 similarly
                   concluded in a report issued in 198812 that better guidance
                   on what constitutes grand jury information could increase
                   case referrals for possible assessment. The GAO also
                   concluded that special agents should consult with the IRS
                   Office of Chief Counsel or the United States Attorney’s
                   Office (USAO) to help determine what information could be
                   forwarded for civil action.
                   The CI function’s procedures for identifying
                   information in grand jury cases that could be referred
                   may be ineffective
                   The general rule of grand jury secrecy is set forth in
                   Rule 6(e)(2) of the Federal Rules of Criminal Procedure. It
                   provides that grand jurors, Federal Government attorneys
                   and their assistants, and other personnel associated with the
                   grand jury are forbidden to disclose “matters occurring
                   before the grand jury.” The question of what constitutes a
                   matter occurring before a grand jury has not been expressly
                   addressed by the Supreme Court nor is it defined anywhere
                   in the Federal Rules of Criminal Procedure.
                   In determining if something is a matter occurring before the
                   grand jury, the courts have considered factors such as:
                        •   Whether the evidence was ever presented to the
                            grand jury.
                        •   The type of evidence at issue.
                        •   Whether the disclosure would reveal what transpired
                            before the grand jury.
                   The issue of what constitutes grand jury material has been
                   the subject of numerous and often conflicting circuit court
                   opinions.13 The grand jury secrecy rules are a broad concept
                   that results in each judicial district having its own
                   interpretation of information subject to the grand jury
                   secrecy rules. For instance, some courts have ruled the IRS

                   11
                      Formerly the General Accounting Office.
                   12
                      Tax Administration: Investigating Illegal Income – Success
                   Uncertain, Improvements Needed (Reference Number
                   GAO/GGD-88-61, dated April 1988).
                   13
                      Litigation Guideline Memorandum CT-3, Grand Jury Evidence –
                   Matters Occurring Before a Grand Jury, dated September 6, 1994.
                                                                               Page 8
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   may rely upon documentation that does not disclose matters
                   occurring before the grand jury for its civil investigations.
                   This can include tax calculations, back-up documentation,
                   and work products created for purposes independent of the
                   grand jury.
                   According to the IRM and CI function internal memoranda,
                   after all criminal matters have been concluded, the CI
                   function will confer with an attorney for the Federal
                   Government for the purpose of pursuing any civil action.
                   The ultimate decision to release evidence acquired during a
                   grand jury investigation for civil action falls within the
                   purview of the local USAO. If the attorney for the Federal
                   Government agrees civil action should be pursued, the CI
                   function will seek the assistance of the CT Division in
                   reviewing the information gathered for the purpose of
                   pursuing civil action.
                   According to CI function field office personnel, there is no
                   local guidance for determining what constitutes grand jury
                   information within their judicial districts. In addition, there
                   is no uniformity in the steps taken for determining if
                   information obtained during an investigation should be
                   classified as grand jury. When asked to describe the process
                   for classifying grand jury information, CI function field
                   office personnel provided one or more of the following
                   responses:
                          •   Rely on past experience.
                          •   Contact other CI function personnel.
                          •   Contact Disclosure function personnel.
                          •   Contact CT Division attorneys.
                          •   Contact the USAO.
                   In describing the process for actually referring information
                   in grand jury investigations, several CI function personnel
                   indicated that only information that has been made public
                   through the indictment, plea agreement, or the judgment and
                   commitment order could be shared. While this may ensure
                   the referral of case information when a taxpayer is
                   sentenced and ordered to cooperate with the IRS, this may
                   not ensure the referral of information from cases that were

                                                                           Page 9
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   not successfully prosecuted. This is underscored by the fact
                   that, during FYs 2002 and 2003, the CI function referred for
                   civil action only 115 (18.2 percent) of 63214 grand jury
                   investigations that were discontinued before the prosecution
                   recommendation. Public information, such as an indictment
                   or plea agreement, would not be applicable for these cases.
                   Table 2 summarizes this information.
                         Table 2: Tax Cases Discontinued Prior to Prosecution
                        Recommendation – Percentage Referred for Civil Action –
                                         FYs 2002 and 2003

                   Type of Case          Total          Total            Percent
                                         Cases         Referred          Referred

                   Administrative         983             570              58%

                   Grand Jury             632             115              18%

                   Total                 1,615            685              42%
                   Source: The CIMIS.

                   Not having local guidance, along with CI function personnel
                   not consulting with the USAO to identify information
                   subject to the grand jury restrictions in each case, can result
                   in referable cases not being forwarded for civil action. The
                   USAO has the ultimate responsibility for determining if
                   information in its grand jury investigations can be used for
                   civil purposes. The CI function needs to emphasize to its
                   field personnel that the USAO is the authority and should be
                   consulted for determining what constitutes grand jury
                   information during each case.
                   The CI function may not have properly segregated
                   information in grand jury cases
                   To prevent doubt about the origins of information available
                   for civil use, the IRM requires that the supervisory special
                   agent ensure the segregation of information prior to the
                   receipt of any grand jury information and have such material
                   clearly marked as nongrand jury. After the grand jury
                   investigation begins, any information obtained

                   14
                     According to the CIMIS, these 632 subject investigations contained
                   tax or tax-related violations and were discontinued prior to a prosecution
                   recommendation.
                                                                                    Page 10
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   independently of the grand jury should be kept separate and
                   clearly identified as an independent source. In addition, CI
                   function procedures require that its field personnel consult
                   with CT Division attorneys and the USAO when questions
                   arise in the segregation process.
                   The IRM further requires that special care be taken to
                   document sources of information, since the IRS may have to
                   prove evidence used for civil purposes was properly
                   obtained under a Rule 6(e) order or was obtained
                   independently of the grand jury process. The nongrand jury
                   information, even if the same as the grand jury information,
                   is not governed by Rule 6(e) and may be disclosed in
                   accordance with I.R.C. § 6103.15
                   We started fieldwork at the beginning of February 2004 and
                   requested to review information from 50 closed grand jury
                   investigations. We agreed with the CI function that we
                   would not be able to review grand jury information included
                   in those investigations due to the grand jury secrecy rules.
                   However, we were expecting some of the information to be
                   readily available because the information would have been
                   properly segregated and identifiable as nongrand jury
                   material. Because several months lapsed between the time
                   of our initial request and when we received limited
                   information, this raises concerns that the CI function may
                   not have properly segregated the nongrand jury material.16
                   The proper segregation of information within each grand
                   jury investigation is essential to ensure all nongrand jury
                   information is made available for civil assessment.



                   15
                      26 U.S.C. § 6103 (2003), Confidentiality and disclosure of returns and
                   return information.
                   16
                      The Chief, CI’s, response stated that this was a speculative conclusion
                   and that there was no information to establish how many of the grand
                   jury cases were initiated as administrative investigations. We raised this
                   issue based on the limited information available to us and believe that,
                   regardless of how a grand jury case is initiated or investigated, certain
                   information may not fall under the grand jury restrictions and thus
                   should be segregated and readily available, as provided by the CI
                   function’s existing procedures. We also believe the underlying premise
                   of our observation is further supported by the Chief, CI’s, commitment
                   to advise special agents in charge of the importance of segregating grand
                   jury material, as provided on page 13.
                                                                                   Page 11
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   The CI function did not appoint officials within each
                   field office to provide guidance on civil matters
                   According to the IRM, the CI Director, Field Operations,
                   will appoint a management official in each field office to be
                   responsible for making determinations on civil matters
                   involving the subjects of grand jury investigations. The
                   official will not have access to any grand jury information.
                   Several CI function managers advised they were unaware of
                   this requirement and affirmed they do not have an official
                   responsible for providing guidance on civil matters.
                   A management official fluent in the interpretation of the
                   grand jury rules within his or her judicial district can be an
                   asset in providing guidance on civil matters. The official
                   could also assist in ensuring the proper segregation of
                   information in grand jury investigations.
                   Because of the scope limitations previously described, we
                   could not review a sufficient number of grand jury cases to
                   conclusively determine whether the CI function is properly
                   classifying and referring grand jury information for civil
                   action. However, our limited reviews, discussions, and
                   analysis of CIMIS data suggest that the following actions
                   may improve this critically important process:
                       •   Each field office should coordinate with the CT
                           Division and the applicable USAO(s) to develop
                           local guidance on what constitutes grand jury
                           information.
                       •   Field office personnel, in collaboration with the CT
                           Division, should seek the USAO’s guidance in
                           determining what information from grand jury
                           investigations can be provided to the civil functions,
                           recognizing that the USAO is the final authority on
                           such matters.
                       •   Local CI function field office management should
                           periodically review case files to verify whether
                           information obtained during grand jury
                           investigations is properly segregated.
                       •   Each field office should appoint a management
                           official responsible for making determinations on
                           civil matters involving grand jury investigations.
                                                                          Page 12
               Improvements Are Needed to Ensure Information Developed
                During Criminal Investigations Is Referred for Civil Action

                                  Without these improvements, taxpayers may not be pursued
                                  civilly, which could result in potential tax assessments not
                                  being made and negatively affect the public’s confidence in
                                  the fairness of the tax system.

                                  Recommendation

                                  3. The Chief, CI, should consider issuing supplemental
                                     guidance to the field offices to improve the processes for
                                     properly classifying, segregating, and using grand jury
                                     information, thereby maximizing its use for civil tax
                                     administration purposes.
                                  Management’s Response: The Chief, CI, agreed with the
                                  recommendation. A memorandum will be issued to the
                                  special agents in charge nationwide that will include a
                                  reference to the IRM section on the importance of the
                                  segregation of grand jury material. Additionally, the IRM
                                  will be amended to remove the requirement that the
                                  Director, Field Operations, appoint a management official to
                                  be responsible for making determinations on civil matters
                                  involving the subjects of grand jury investigations, as this
                                  determination will still be made by the local USAOs. The
                                  CI function will instruct the field to maintain close liaison
                                  with the local AUSAs to keep them informed of potential
                                  civil issues and to seek their guidance in determining what
                                  material can be provided to the IRS civil functions.
                                  We selected 12 investigations involving abusive trust
The Criminal Investigation        promoters and preparers of potentially fraudulent tax returns
Function Has Implemented          to determine if client information in these cases was referred
Procedures Emphasizing            for civil action, since the clients could have received an
Coordination With Civil           unwarranted tax benefit from the potentially fraudulent
Functions on Investigations       scheme. We reviewed only seven cases because of the
Involving Abusive Trust           grand jury restrictions previously described. As a result, we
Promoters and Preparers of        could not state an overall conclusion on the CI function’s
Fraudulent Returns                efforts to ensure client information is properly referred for
                                  civil action. The following are examples of the cases we
                                  reviewed to determine if the client information was referred:
                                      •   The clients of a tax preparer who pled guilty to
                                          aiding and assisting in the preparation of false and
                                          fraudulent returns were not referred because it was
                                          determined there was little potential for collection.
                                                                                         Page 13
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                            The indictment charged that 85 false and fraudulent
                            returns were prepared.
                        •   The clients of a tax preparer convicted of preparing
                            false and fraudulent returns were not referred for
                            civil action because the assessment statutes had
                            expired on the clients’ returns. The investigation
                            summary indicated 245 fraudulent tax returns were
                            prepared.
                        •   The investigation of a tax preparer was discontinued.
                            The scheme was originally identified by the SB/SE
                            Division; it was notified by the CI function upon
                            closure of the criminal investigation that it was free
                            to proceed civilly against the clients.
                   In response to a report issued by a joint IRS and Department
                   of Justice task force,17 the CI function issued interim
                   procedures on the use of parallel civil and criminal
                   proceedings to stop promoters of abusive tax schemes. The
                   procedures emphasize the importance of exploring the
                   benefits of working civil injunctive investigations while the
                   criminal investigations continue. The goal of the process is
                   for the CI and civil functions to work together to ensure
                   business decisions about investigations are in the best
                   interest of the IRS’ efforts to stop the promotion of abusive
                   schemes.
                   The IRS estimates the potential revenue loss from abusive
                   tax schemes to be in the tens of billions of dollars annually.
                   Historically, the IRS has waited for criminal investigations
                   to be completed before pursuing any civil actions. The task
                   force concluded that the most effective method of stopping
                   the abusive schemes and scams would be to pursue parallel
                   civil and criminal actions.
                   According to task force members, the benefit of proceeding
                   civilly against an abusive scheme promoter is the use of
                   civil injunctions to stop the abusive scheme much earlier
                   than is possible through criminal enforcement alone. This
                   expedites the IRS’ task of bringing investors (clients) into



                   17
                     Using Parallel Civil and Criminal Proceedings to Stop Abusive Tax
                   Schemes, dated July 2003.
                                                                               Page 14
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                   compliance and recovering lost taxes by requiring the
                   promoter to turn over complete client lists.
                   In addition, the CI function recently entered into a
                   Memorandum of Understanding (MOU) with the Wage and
                   Investment (W&I) Division for the referral of clients
                   identified during its investigation of refund preparer
                   schemes. This MOU established procedures for an efficient,
                   timely, and cost-effective transition of work between the
                   CI function and the W&I Division. During FY 2003, the
                   initial year of the MOU, the CI function referred
                   approximately 37,000 tax returns to the W&I Division.
                   About 44,235 tax returns have been referred in FY 2004,
                   and the CI function expects to refer about 23,000 tax returns
                   to the W&I Division in FY 2005. In addition, in FYs 2003
                   and 2004, the CI function referred to the SB/SE Division
                   approximately 11,000 and 27,000 tax returns, respectively.
                   Approximately 43,000 tax returns are expected to be
                   referred to the SB/SE Division in FY 2005, even though a
                   formal agreement with the SB/SE Division is not in place.
                   We believe the successful implementation of these
                   procedures should help ensure more clients of abusive trust
                   promoters and preparers of fraudulent returns are addressed
                   civilly.




                                                                        Page 15
                   Improvements Are Needed to Ensure Information Developed
                    During Criminal Investigations Is Referred for Civil Action

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Criminal Investigation (CI)
function ensured information identified during its investigations was properly referred for civil
action. To accomplish our objective, we obtained an extract from the CI Management
Information System (CIMIS)1 as of September 30, 2003. We validated the data received from
the CIMIS by comparing the results of various queries to the CI function’s management
information reports. However, we did not verify the accuracy of the data entered in the CIMIS.
Specifically, we:
I.       Determined whether the CI function’s policies and procedures ensure cases are forwarded
         for civil action where appropriate.
         A. Evaluated and discussed the procedures for ensuring the clients identified during
            investigations of abusive trust promoters and preparers of fraudulent tax returns are
            referred for civil action.
         B. Evaluated whether the CI function had established procedures to monitor the civil
            actions taken by the Examination and Collection functions on closed criminal cases
            referred for civil action.
         C. Reviewed and discussed policies and procedures pertaining to grand jury2
            information.
II.      Determined whether the tax implications resulting from closed criminal investigations of
         subjects and related clients (if applicable) are properly and timely referred to the
         appropriate Compliance function.
         A. Analyzed the CIMIS and identified 2,393 tax-related3 subject investigations that
            were closed during Fiscal Years 2002 and 2003 and for which the CI function made a
            determination either to forward the case for civil action or that no civil action
            was necessary. This information was further subdivided between administrative
            and grand jury investigations. The Chicago, Illinois; Newark, New Jersey;
            Oakland, California; and Tampa, Florida, field offices were judgmentally selected


1
  The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.
2
  A grand jury is established to hear testimony to determine whether there is probable cause to believe the person to
be indicted committed the crime in question. The grand jury adheres to the strictest of secrecy, and violators of the
secrecy requirements are subject to severe penalties.
3
  The CI function defines tax-related investigations as those investigations citing criminal violations of Title 26
(Internal Revenue Code) or Title 18 code sections 286, 287, 371(b), or 371(k).
                                                                                                             Page 16
         Improvements Are Needed to Ensure Information Developed
          During Criminal Investigations Is Referred for Civil Action

   based on factors such as the number of cases closed for which a civil action
   determination was made, the number of abusive trust and return preparer cases closed
   for which a civil determination was made, the percentage of all cases forwarded for
   civil action, the percentage of grand jury cases forwarded for civil action, and the
   percentage of tax or tax-related cases forwarded for civil action. We also considered
   the geographic location of the offices.
B. Randomly selected 78 of 417 tax or tax-related subject investigations that were
   closed during the same period from the 4 judgmentally selected CI function field
   offices. Of these, 35 cases were categorized as forwarded for civil action, and
   43 cases were categorized as no civil action necessary. We included 12 cases
   involving abusive trust promoters and tax return preparers as part of our selection of
   78 cases. We used this sampling methodology because we did not intend to project
   our results to the entire universe.
C. For the 35 cases categorized as forwarded for civil action:
    1.   Reviewed documents from the CI function’s investigative case files for
         34 cases. We were unable to review 1 of the 35 cases because the Assistant
         United States Attorney (AUSA) deemed the entire case as grand jury
         information.
    2.   Reviewed the subjects’ tax account data.
    3.   For the cases involving abusive tax promoters and tax return preparers, assessed
         the reasons for not forwarding the clients for civil action, if applicable.
    4.   Interviewed CI function and Small Business/Self-Employed Division personnel.
D. For the 43 cases categorized as no civil action necessary:
    1.   Reviewed documents from the CI function’s investigative case files for
         18 cases. We were unable to review 25 of the 43 cases because the AUSA
         deemed all or portions of these cases as grand jury information.
    2.   For the cases involving abusive tax promoters and tax return preparers, assessed
         the reasons for not forwarding the clients for civil action, if applicable.
    3.   Interviewed CI function personnel.




                                                                                  Page 17
               Improvements Are Needed to Ensure Information Developed
                During Criminal Investigations Is Referred for Civil Action

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Jeffrey K. Jones, Lead Auditor
Todd M. Anderson, Senior Auditor
Michael J. Hillenbrand, Senior Auditor
Ahmed M. Tobaa, Senior Auditor




                                                                                      Page 18
               Improvements Are Needed to Ensure Information Developed
                During Criminal Investigations Is Referred for Civil Action

                                                                              Appendix III


                                 Report Distribution List

Commissioner C
Office of Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Division Counsel/Associate Chief Counsel (Criminal Tax) CC:CT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                   Page 19
                     Improvements Are Needed to Ensure Information Developed
                      During Criminal Investigations Is Referred for Civil Action

                                                                                                           Appendix IV


                                                Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Increased Tax Revenue – Potential; approximately $3.9 million (see page 4).
•   Increased Tax Revenue – Actual; 3d----- (see page 4).
Methodology Used to Measure the Reported Benefit:
We reviewed 34 cases closed (from the 4 field offices reviewed) during Fiscal Years (FY) 2002
and 2003 for which the Criminal Investigation (CI) function indicated that civil action was
needed to determine if the civil functions were properly notified. In 12 of these 34 cases, the CI
function either did not properly notify the civil functions of the need for any action or did not
follow up to ensure the civil function received the information. As a result, civil action was not
initiated and pursued. According to the CI function’s case file information, these 12 cases had a
total tax deficiency amount of about $3.9 million.1 The potential increased tax revenue portion
of the Outcome Measure ($3.9 million) recognizes the potential assessment and collection of tax
revenues upon referral to the civil functions.
We also reviewed 12 administrative cases closed (from the 4 field offices reviewed) during
FYs 2002 and 2003 for which the CI function indicated that civil action was not required. In one
case, 3d-----------------------------------------------------------------------------------------------------------
---------------------------------------------------------------------------------------------------------------------
---------------------------------------------------------------------------------------------------------------------
---------------------------------------------------------------------------------------------------------------------
---------------------------------------------------------------------------------------------------------------------
---------------------------------------------------------------------------------------------------------------------
---------2



1
  A prior Treasury Inspector General for Tax Administration report, Courts Are Not Always Notified When
Criminals Fail to Comply With Their Sentences to Settle Civil Tax Liabilities (Reference Number 2004-10-060,
dated March 2004) identified inaccurate criminal deficiency amounts in the CI Management Information System
(CIMIS). The CIMIS is a database that tracks the status and progress of criminal investigations and the time
expended by special agents. It is also used as a management tool that provides the basis for decisions of both local
and national scope. We used the criminal deficiency amounts shown in the CIMIS and did not independently
validate the information. Accordingly, we do not express an opinion on the amounts shown.
2
  3d------------------------------------------------------------------------------------------------------------------------
                                                                                                                    Page 20
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action

                                                               Appendix V


     Management’s Response to the Draft Report




                                                                   Page 21
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action




                                                               Page 22
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action




                                                               Page 23
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action




                                                               Page 24
Improvements Are Needed to Ensure Information Developed
 During Criminal Investigations Is Referred for Civil Action




                                                               Page 25
